IN THE SUPREME COURT OF THE UNITED STATES

OMWEGA, PHOEBE BOCHERE
Petitioner
vs.

No:

20-1395

MERRICK B. GARLAND, ATTORNEY GENERAL
WAIVER
The Government hereby waives its right to file a response to the petition in this case,
unless requested to do so by the Court.

ELIZABETH B. PRELOGAR
Acting Solicitor General
Counsel of Record
May 06, 2021
cc:

See Attached List

KATHERINE BOOTH WELLINGTON
HOGAN LOVELLS US LLP
125 HIGH ST.
SUITE 2010
BOSTON, MA 02110
DAYNA MARIE WHEATLEY
WHEATLEY IMMIGRATION LAW,
LLC
5420 CORPORATE BOULEVARD
ROOM 308
BATON ROUGE, LA 70808
NEAL KUMAR KATYAL
HOGAN LOVELLS US LLP
555 THIRTEENTH STREET, N.W.
WASHINGTON, DC 20004

